No. 19-357

IN THE

Supreme Court of the United States
----------------------CITY OF CHICAGO,

Petitioner,
v.
ROBIN L. FULTON, GEORGE PEAKE AND
TIMOTHY SHANNON,

Respondents.
----------------------On Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit
----------------------BRIEF OF BANKRUPTCY LAW
PROFESSORS AS AMICI CURIAE
IN SUPPORT OF RESPONDENTS
----------------------MARY JOANNE DOWD
ARENT FOX LLP
1717 K Street, NW
Washington, D.C. 20006
202-857-6000
mary.dowd@arentfox.com

DAVID R. KUNEY
Counsel of Record
9200 Cambridge Manor Court
Potomac, MD. 20854
301-299-9544
davidkuney@dkuney.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF THE AMICI CURIAE ....................... 1
SUMMARY OF THE ARGUMENT ........................... 3
ARGUMENT ............................................................ 10
I.

Delayed Turnover of Property of the Estate
Frustrates the Rehabilitation Goals of the
Bankruptcy Code for Both Chapter 13 and
Chapter 11 Debtors. .......................................... 10

II. The City’s Refusal to Immediately Turn Over
the Debtors’ Impounded Vehicles Was in
Derogation of Its Duty to Deliver Estate
Property to the Debtors. .................................... 12
A. Under Whiting Pools the City no longer
had a “possessory interest” in the
impounded vehicles and was required to
turn over the seized vehicles to the
debtors. ........................................................ 12
B. The obligation of a creditor to turn over
estate property under § 542, even prior to
an adequate protection ruling, is entirely
consistent with pre-Code practice and
law. .............................................................. 15

ii
III. The City’s Obligation to Turn Over the
Impounded Vehicles to the Debtors Was Not
Subject to a Condition Precedent That the
Debtors First Obtain a Court Determination
on Adequate Protection. .................................... 19
A. A creditor is entitled to adequate
protection only if it complies with the
congressionally established procedures
and properly initiates a request for such
protection. ................................................... 19
B. The City intentionally declined to seek
adequate protection. ................................... 22
IV. The City’s Refusal to Turn Over The Debtors’
Impounded Vehicles Constituted a Violation
of the Automatic Stay. ....................................... 25
A. The legislative history does not support
the view that the amendments to
§ 362(a)(3) were merely “technical
changes.” ..................................................... 25
B. The City’s argument that the 1984
amendment was only intended to add
“intangible property” is incorrect. .............. 30
CONCLUSION ......................................................... 34
APPENDIX A, List of Amici Curiae Law
Professors ........................................................... A1
APPENDIX B, H.R. Rep. No. 96-1195 (1980)
(Excerpted) ......................................................... B2

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Bracewell v. Kelley (In re Bracewell),
454 F.3d 1234 (11th Cir. 2006)...........................18
In re Canonsburg Envtl. Assocs. Ltd.,
72 F.3d 1260 (6th Cir. 1996) ........................22, 23
Cohen v. de la Cruz,
523 U.S. 213 (1998).............................................33
Cont’l Ill. Nat’l Bank & Tr. Co. v. Chi. Rock
Island & Pac. Ry. Co.,
294 U.S. 648 (1935).........................................7, 17
Crawford v. Burke,
195 U.S. 176 (1904).............................................27
In re Del Mission Ltd.,
98 F.3d 1147 (9th Cir. 1996) ..............................26
In re Denby-Peterson,
941 F.3d 115 (3d Cir. 2019) ..........................14, 25
Elec. Realty Assocs., Inc. v. ERA Cent. Reg’l
Servs., Inc. (In re ERA Cent. Reg’l Servs.,
Inc.),
39 B.R. 738 (Bankr. C.D. Ill. 1984) ....................32
Franklin Fin. Corp. v. Baker (In re Baker),
No. 14-71600-PMB, 2018 Bankr. LEXIS 3158
(Bankr. N.D. Ga. Oct. 12, 2018) .........................23

iv
Hall v. United States,
566 U.S. 506 (2012).............................................33
In re Javens,
107 F.3d 359 (6th Cir. 1997) ..............................26
Katchen v. Landy,
382 U.S. 323 (1966).............................................31
R.S. Pinellas Motel P’Ship v. Ramada Inns, Inc.
(In re R. S. Pinellas Motel P’ship),
2 B.R. 113 (Bankr. M.D. Fla. 1979) ...................31
Reconstruction Fin. Corp. v. Kaplan,
185 F.2d 791 (1st Cir. 1950) ....................... passim
In re Riding,
44 B.R. 846 (Bankr. D. Utah 1984) ....................16
Schokbeton Indus., Inc. v. Schokbeton Prods.
Corp. (In re Schokbeton Indus., Inc.),
466 F.2d 171 (5th Cir. 1972) ..............................31
Thompson v. Gen. Motors Acceptance Corp.,
566 F.3d 699 (7th Cir. 2009) ............ 17, 19, 21, 26
United Sav. Ass’n of Tex. v. Timbers of Inwood
Forest Assocs., Ltd.,
484 U.S. 365 (1988).............................................24
United States v. Whiting Pools Inc.,
462 U.S. 198 (1983)..................................... passim
United States v. Whiting Pools, Inc.,
674 F.2d 144 (2d Cir. 1982) ..........................14, 18

v
Varisco v. Oroweat Food Co. (In re Varisco),
16 B.R. 634 (Bankr. M.D. Fla. 1981)..................32
Weber v. SEFCU (In re Weber),
719 F.3d 72 (2d Cir. 2013) ..................................18
Williams v. Austrian,
331 U.S. 642 (1947).............................................27
Statutes
11 U.S.C. § 361 ..........................................................24
11 U.S.C. § 362(a)(3) ......................................... passim
11 U.S.C. § 362(d)(1) .................................................12
11 U.S.C. § 363(c) ......................................................20
11 U.S.C. § 363(e) .......................................... 20, 21, 22
11 U.S.C. § 363(p)(2) ...........................................21, 22
11 U.S.C. § 541 ............................................................4
11 U.S.C. § 542(a).............................................. passim
Act of June 22, 1938, ch. 575, 52 Stat. 8403
(1938)...................................................................16
Bankruptcy Act of 1898 § 257...............................7, 16
Legislative Materials
H.R. Rep. No. 95-595 (1977) .....................................31

vi
H.R. Rep. No. 96-1195 (1980) ................. 27, 28, 29, 32
S. Rep. No. 95-989 (1978)..........................................31
Other Authorities
BLACK’S LAW DICTIONARY (11th ed. 2019)
(“Such”) ...............................................................33
2 Collier on Bankruptcy ¶ 23.05 (14th ed. 1975) .....31
3 Collier on Bankruptcy ¶ 361.02 (16th ed. 2018) ...21
5 Collier on Bankruptcy ¶ 542.03 (16th ed. 2019) ...15
Job Opportunities Task Force, The
Criminalization of Poverty: How to Break the
Cycle Through Policy Reform in Maryland,
Jan. 2018, https://jotf.org/wpcontent/uploads/2018/08/cop-report013018_final.pdf .................................................10
KENNETH KLEE & WHITMAN HOLT,
BANKRUPTCY AND THE SUPREME
COURT: 1801-2014 (2015) .................................27
Ralph Brubaker, Turnover, Adequate Protection,
and the Automatic Stay (Part I): Origins and
Evolution of the Turnover Power, 33 Bankr.
L. Letter No. 8 (Aug. 2013) .................................20
Ralph Brubaker, Turnover, Adequate Protection,
and the Automatic Stay (Part II): Who is
“Exercising Control” Over What?, 33 Bankr.
L. Letter No. 9 (Sept. 2013) .................................26

vii
Ralph Brubaker, Turnover, Adequate Protection
and the Automatic Stay: A Reply to Judge
Wedoff, 38 Bankr. L. Letter No. 11 (Nov.
2018) .....................................................................30
Torie Atkinson, Note, A Fine Scheme: How
Municipal Fines Become Crushing Debt in
the Shadow of the New Debtors’ Prisons, 51
Harv. C.R.-C.L. L. Rev. 189 (2016) ....................24

INTEREST OF THE AMICI CURIAE1
Amici are bankruptcy law professors affiliated
with various institutions identified in Appendix A.
Amici file this brief out of a concern that the rule
urged by Petitioner, City of Chicago, would
fundamentally impair the ability of debtors to
reorganize under both Chapter 11 and Chapter 13.
This case arises in the context of a dispute
involving Chapter 13 debtors whose vehicles were
impounded by the City of Chicago before the
respondent-debtors filed their bankruptcy cases.
After the filings, the City then refused to turn over
the vehicles, thereby exercising control over “property
of the estate” and harming the debtors’ ability to earn
a living and effectuate their bankruptcy plans. This
refusal to turn over the vehicles constitutes a
violation of the bankruptcy automatic stay. 11 U.S.C.
§ 362(a)(3).
But this case is far more consequential than a
case involving consumer debtors and their vehicles.
The automatic stay and the associated “turnover”
provision, 11 U.S.C. § 542(a), require any third
party—including
creditors—to
surrender
any
property of the estate that is in their possession when
a bankruptcy case is filed. This provision applies to all
bankruptcy cases, not just disputes involving the
municipal impoundment of consumer debtors’
Pursuant to Supreme Court Rule 37, counsel of record for
petitioner and respondents have consented to the filing of this
brief. No counsel for a party authored this brief in whole or in
part, and no person other than amici or their counsel contributed
any money to fund its preparation or submission.
1

2
vehicles. The turnover obligation found in § 542 is the
linchpin
that
permits
rehabilitation
and
reorganization to function; if creditors can seize
debtors’ property on the eve of bankruptcy, and
subsequently retain the property pending the judicial
resolution of their demand for adequate protection,
creditors would effectively be able to destroy all
prospects of rehabilitation. Adopting the position
urged by the City would result in serious adverse
consequences for the Chapter 11 and 13
reorganization systems.
This Court’s earlier ruling in United States v.
Whiting Pools Inc., 462 U.S. 198, 205 (1983) prohibits
exactly this kind of outcome. In Whiting Pools the
Court held that § 542(a) requires a secured creditor
that has seized property of a debtor prior to the filing
of a bankruptcy case to turn over the property to the
bankruptcy estate prior to any adjudication of
adequate protection. The key lesson articulated in
Whiting Pools is that if a creditor could seize estate
property pre-bankruptcy, and then not have to
surrender it once the debtor filed for bankruptcy,
there would be only a “small chance” for the debtor’s
reorganization to succeed. Id. at 203.
Unless the Whiting Pools rule is enforced through
the automatic stay, as the decision below requires, the
turnover will simply come too late for many debtors
seeking to reorganize. Under the rule urged by the
City, secured creditors can retain possession of the
debtor’s property until the bankruptcy court resolves
their demands for adequate protection against
depreciation to the property which they seized and

3
are holding. This rule undermines a debtor’s
reorganization prospects and destroys value for other
creditors. By the time the debtor recovers its property,
the going concern value of its business will likely be
destroyed, leaving only the option of liquidation. The
City’s statutory interpretation would often render
Chapter 11 reorganizations unworkable. In order to
preserve the viability of Chapter 11, the Court must
reject the City’s argument.
SUMMARY OF ARGUMENT
The question presented in this case is whether the
City’s refusal to turn over the debtors’ vehicles which
it had seized prior to the filing of the bankruptcy cases
was a violation of the automatic stay under
§ 362(a)(3), on the grounds that this refusal
constituted an act to exercise control over property of
the bankruptcy estate. The answer must be yes. Any
other rule would cause incalculable harm to the
ability of debtors to reorganize under the Bankruptcy
Code.
As the City notes, the issue is not whether there
is ultimately a turnover obligation for a creditor in
possession of estate property. Instead, the question is
“only when turnover must occur: immediately upon
the filing of the bankruptcy petition, or after
resolution of any disputes and the provision of
adequate protection in a turnover proceeding under
§ 542(a).” Pet. Br. 44.
The timing of turnover is critical because time is
of the essence in a Chapter 11 reorganization. If a
debtor is deprived of key assets needed for operations

4
it cannot carry out its business. This means it cannot
fulfill its existing contractual obligations, and it is
unlikely to obtain future contracts. The debtor’s
business will cease to be viable, so the debtor will
have to liquidate. Even a small delay in regaining
control of key assets can be fatal.
Whiting Pools addressed this critical problem of
ensuring that a debtor is able to function as an
operating business immediately upon its filing for
bankruptcy. This Court held that when a secured
creditor has seized estate property before a
bankruptcy filing, then upon the bankruptcy filing:
(a) such property remains property of the bankruptcy
estate; (b) the creditor no longer has the state-law
possessory right that it might have had prebankruptcy; (c) the creditor must turn over the estate
property to the debtor immediately and without precondition; and (d) the creditor may then invoke
certain Code based protections in lieu of retaining
possession. Whiting Pools is correctly rooted in the
text of § 541 (describing property of the estate) and
§ 542(a) (requiring the turnover of property of the
estate).
Whiting Pools balanced the obligation to return
estate property by also holding that creditors may
“seek protection of [their] interest according to
congressionally established bankruptcy procedures,
rather than by withholding property [of the estate].”
462 U.S. at 212. These congressionally established
procedures are set forth in §§ 361 and 362. Adequate
protection is not automatic, however. A creditor must
pursue it by motion, and must bear the burden of

5
proof that it has a valid lien and interest in the
debtor’s property. If not sought, adequate protection
is waived.
Section 362(a)(3) implements the core rationale
set forth in Whiting Pools by making it a violation of
the automatic stay for a creditor to disregard the shift
in possessory right by retaining property of the estate
after the bankruptcy case has begun. This provision
is unambiguous. The majority of the circuit courts
have found that a creditor’s refusal to deliver estate
property as required by § 542 is a violation of the
automatic stay. Whether the creditor’s conduct is
viewed as “active” or “passive” is immaterial. The
refusal to deliver suffices.
The City’s appeal disputes each of these longstanding, crucial understandings of bankruptcy
history, law, and practice. First, the City argues that
§ 542 is supposedly not “self-executing.” By this the
City means that § 542 does not create a duty to turn
over property of the estate unless and until a creditor
has, at its discretion, obtained a full adjudication of
its right to adequate protection—regardless of how
long this might take.
The City’s argument—that adequate protection
must precede turnover—is in total derogation of the
adequate protection regime, which: (1) plainly
requires a creditor to seek adequate protection by
filing a motion, and (2) does not limit the estate’s right
to possession of its property until the creditor decides
to invoke whatever adequate protection rights it
might have. Here, the City delayed by intentionally

6
never invoking whatever right it might have had to
adequate protection. As a result, turnover of the
debtors’ property was delayed for several months,
thus demonstrating precisely the kind of harm that
§§ 542 and 362(a)(3) seek to prevent.
The City’s proposed rule will have grave
consequences for how Chapter 11 functions in a
business case. Creditors will almost certainly decide
to seize collateral of a failing company days or weeks
before a possible bankruptcy filing, and then refuse to
surrender the debtor’s property unless and until its
demands for adequate protection are satisfied—
whether such demands are fair or not. If deprived of
its key business assets, a debtor will be unable to
honor its contractual obligations and will find it
difficult, if not impossible, to obtain new business.
The City’s proposed rule is an economic death
sentence for businesses seeking to reorganize under
Chapter 11.
The same is true in a Chapter 13 case. The City’s
refusal to turn over debtors’ vehicles—especially to
debtors who rely on their own vehicle for
transportation to their jobs—deeply impairs debtors’
primary hope of successfully reorganizing. Without
their vehicles and primary mode of transportation,
debtors will face a substantial risk of losing their
job(s), and may then be prevented from performing
their monetary obligations under a bankruptcy plan,
and will thus lose the opportunity for a discharge as
well.

7
Second, the City argues that if this Court were to
sustain the long-standing majority rule by finding
that § 542 is self-executing, this Court would
effectuate a major change in pre-Code law. In fact, the
exact opposite is true.
Since at least 1935, the courts and Congress have
been well aware of the problem of creditors retaining
seized collateral after a bankruptcy filing. As a result,
they uniformly recognized that unless creditors were
obligated to return estate property immediately,
there would be a “small chance” of reorganization.
Indeed, the proper historical view of the statutory
history shows a steady progression by the Court and
Congress to enlarge the protection of property of the
estate, starting as early as 1935 with the Court’s
decision in Continental Illinois National Bank &
Trust Co. v. Chicago Rock Island & Pacific Railway
Co., 294 U.S. 648 (1935), and building on
Reconstruction Finance Corp. v. Kaplan, 185 F.2d 791
(1st Cir. 1950), and then Whiting Pools in 1983.
The statutory roots of turnover have evolved from
§ 257 of the Bankruptcy Act of 1898 to the modern
§ 542 of the Bankruptcy Code of 1978. Congress has
steadily enlarged the turnover obligation. First,
Congress created a right in a debtor to “immediate
possession” of estate property in the hands of third
persons, and then it enlarged that right in § 542 by
requiring “delivery” of the property to the estate. The
Court in Whiting Pools correctly reviewed this
statutory development and ensured the proper
functioning of bankruptcy by declaring that property
of the estate includes the possessory interest in

8
property held by a third party. The true “sea change”
which the City bemoans would actually result from its
own proposed outcome.
Third, the City attempts to avoid the plain
meaning of § 362(a)(3) by arguing that there must be
an “act” of “exercising control” beyond the City’s mere
refusal to turn over estate property. Yet, the cases
from which the turnover obligation has developed
(Reconstruction Finance Corp. v. Kaplan, Whiting
Pools, and others) are not predicated on some
additional form of conduct beyond the refusal to turn
over estate property. It is the refusal to turn over
estate property itself that harmfully interferes with
reorganization and rehabilitation; more is not needed.
The City further argues that “ample evidence”
supposedly exists in the legislative history indicating
that Congress intended only a “technical change”
without intending to change the practice that
supposedly existed before the amendments to
§ 362(a)(3). Cert. Pet. 23. This argument is based on
a misreading of the 1980 and 1984 amendments. In
the 1980 (proposed) amendments, where the key
language first appeared, Congress made numerous
substantive changes—as well as some “technical”
changes—but in most cases it distinguished these two
types of changes. For example, changes made to the
stay provisions are undeniably substantive. They
plainly provided an intent to protect property
obtained pre-bankruptcy from being subject to
creditor control after the bankruptcy case
commenced. The 1984 amendments carried forward
this very same language.

9
Accordingly, and with good reason, most courts—
looking to the plain meaning of § 362(a)(3)—view the
addition of the “exercise control” language not as an
insignificant, “technical change,” but as a substantive
change enlarging the protection offered by the
automatic stay to prevent exactly what occurred in
this case.
The City’s alternative reading, that Congress
intended for the amendment to § 362(a)(3) to apply
only to intangible property is extreme and readily
dismissed; further, this alternative reading is deeply
inconsistent with the City’s argument that the
changes were merely technical. The Code’s definition
of property of the estate, the relevant House Reports,
and the relevant case law make it abundantly clear
that intangible property has always been embraced
within the definition of property of the estate and
hence within the protections provided by the
automatic stay.
The rule urged by the City would undermine the
viability of the Chapter 13 process for debtors who
depend on their vehicles to maintain their livelihoods,
and likewise would prevent many businesses from
being able to reorganize under Chapter 11. Pre-Code
cases recognized that permitting the retention of
seized collateral would likely bring a debtor’s
business to a “standstill” and that it was critical that
secured creditors “get[] out of the driver’s seat.”
Kaplan, 185 F.2d at 796–97. The Court in Whiting
Pools repeatedly emphasized this potential harm to
commercial reorganizations, noting that a contrary
rule—one which permitted a creditor to retain seized

10
collateral—would mean there would be “small
chance” of any reorganization under Chapter 11. 462
U.S. at 203. The same is true here.
ARGUMENT
I.

DELAYED

TURNOVER

OF

PROPERTY

OF

THE

ESTATE FRUSTRATES THE REHABILITATION GOALS

BANKRUPTCY CODE FOR BOTH CHAPTER
13 AND CHAPTER 11 DEBTORS.
OF THE

For many consumer debtors, a vehicle is an
absolute necessity for earning a living.2 Alternative
transportation arrangements are often unavailable or
infeasible, especially outside of major urban centers.
In being deprived of the use of their vehicle, consumer
debtors may consequently be deprived of their
livelihoods. Failure of creditors to immediately turn
over impounded vehicles undermines the ability of
consumers to succeed in their Chapter 13 repayment
plans.
However, this case is about far more than
impounded vehicles. The rule urged by the City would
apply to any creditor seeking to retain possession or
control of any property of the bankruptcy estate. As
such, the effects of the City’s arguments are not

2 Vehicle ownership and/or access to a vehicle is often “crucial to
employment.” Job
Opportunities
Task
Force,
The
Criminalization of Poverty: How to Break the Cycle Through
Policy Reform in Maryland, Jan. 2018, at 15, https://jotf.org/wpcontent/uploads/2018/08/cop-report-013018_final.pdf.

11
merely limited to Chapter 13 debtors; they also apply
to Chapter 11 business debtors.
In Chapter 11 cases, the City’s position would
similarly frustrate the purposes of the Bankruptcy
Code, namely the maximization of value through the
facilitation of reorganization. Consider, for example,
a debtor airline whose aircraft have been repossessed
by a secured creditor, following a loan default, that
refuses to turn over the aircraft to the debtor (airline)
until its demands for adequate protection have been
met.
The debtor airline would thus be precluded from
using its aircraft, so it would not be able to honor the
tickets it already sold. This predicament would
simultaneously increase the total claims on the
airline’s bankruptcy estate while significantly
curtailing the airline’s ability to sell future tickets, as
potential customers would likely be deterred from
purchasing a ticket to fly on an airline without any
airplanes. Without those future ticket sales, the
debtor airline would not be able to pay its employees’
salaries, its insurance premiums, its taxes, or for its
fuel. Its vendors would demand cash payment on
delivery, rather than accepting deferred payment,
reducing the airline’s already limited liquidity. The
airline would have no choice but to liquidate, even if
a reorganization would generate the most value for all
creditors and be far preferable to liquidation.
Only the rule followed by the Seventh Circuit in
the decision below—that the turnover obligation is
immediate and backed up by the force of the

12
automatic stay—ensures that debtors are not
deprived of key property of the estate. Any other rule
would seriously undermine the ability of many
businesses to reorganize under Chapter 11.
Whiting Pools and pre-Code cases such as Kaplan
recognized this reality. See 462 U.S. at 203. “Any
other interpretation of § 542(a) would deprive the
bankruptcy estate of the property essential to its
rehabilitation effort and thereby would frustrate the
congressional purpose behind the reorganization
provisions.” 462 U.S. at 208. The only way Whiting
Pools retains its key function, however, is if the stay
makes the turnover obligation automatic, and not
merely an invitation to negotiate. Allowing creditors
to delay turnover nullifies the rule announced by
Whiting Pools.
II. THE CITY’S

REFUSAL TO IMMEDIATELY TURN

OVER THE DEBTORS’ IMPOUNDED VEHICLES WAS
IN DEROGATION OF ITS DUTY TO DELIVER ESTATE
PROPERTY TO THE DEBTORS.

A. Under Whiting Pools the City no longer
had a “possessory interest” in the
impounded vehicles and was required to
turn over the seized vehicles to the
debtors.
Whiting Pools held that upon the bankruptcy
filing, the possessory right in estate property reverts
to the debtor: the creditor’s state law possessory
interest is “abrogate[ed],” 462 U.S. at 206 n.14, and
the creditor must instead look to the congressionally
created procedures if it wishes to seek adequate

13
protection. 11 U.S.C. § 362(d)(1). Nothing in those
procedures authorizes the creditor to retain
possession of collateral while an adequate protection
motion is pending. Thus, no legal basis exists for the
creditor to retain possession after the bankruptcy
filing.
Whiting Pools is a foundational case of modern
bankruptcy law. Its ruling prevents a secured creditor
from exercising a veto over the Chapter 11 or Chapter
13 process by holding key estate property hostage and
insisting on favored treatment, as occurred here, and
by refusing to permit a debtor—be it a company or an
individual—to use its property to generate funds for
the payment of creditors.
Whiting Pools ensured that the rehabilitative
goals of bankruptcy could not be thwarted by creditors
seizing a debtor’s property on the eve of bankruptcy,
and then refusing to permit the debtor to use it for
productive purposes until the creditor’s demands
were satisfied. Although Whiting Pools does not
directly address the issue of the automatic stay, the
application of § 362(a)(3) to a creditor’s continued
post-petition possession of estate property is the
ineluctable implication of that landmark case.
The threshold question in Whiting Pools was
whether the seized collateral was property of the
estate if it had not yet been sold at a foreclosure sale.
The Court answered affirmatively that it was, and
moreover, that the possessory right to the property
was transferred from creditor to debtor upon the filing
as a matter of law. 462 U.S. at 205–06. Accordingly,

14
the obligation to return the property arises
immediately; in essence, the obligation to turn over
found in § 542 is “self-executing.”
A creditor’s duty to turn over property of the
estate is absolute and not subject to any
preconditions, as indicated by the “shall” requirement
in § 542(a). See In re Denby-Peterson, 941 F.3d 115,
130–31 (3d Cir. 2019) (noting that “shall” is
mandatory, but—in its view—requires an adversary
proceeding). Further, this Court stated that § 542(a)
“requires” a creditor “to deliver that property to the
trustee.” 462 U.S. at 201 n.5, 202–03 (emphasis
added). Whiting Pools did not impose a condition
precedent to the “requirement” that the property be
“delivered.” The language “shall,” “requires,” and
“deliver” speaks to the immediacy of the transfer, and
not to some deferral or condition precedent.
The Court in Whiting Pools also recognized that
“[t]he reorganization effort would have small chance
of success, however, if property essential to running
the business were excluded from the estate.” Id. at
203. Indeed, the Court favorably cited Judge
Friendly’s decision below in Whiting Pools for this
point. Id. at 207 n.16 (citing United States v. Whiting
Pools, Inc., 674 F.2d 144, 151 (2d Cir. 1982) (turnover
necessary if reorganizations were to have realistic
possibility for success)). While Whiting Pools did not
expressly address when turnover had to occur, there
is nothing in the opinion indicating that it could be
delayed, and the logic of the opinion brooks no delay
because time is of the essence in bankruptcy.

15
Accordingly, it is with good reason that § 542 is
viewed as self-executing by both the majority rule
among the circuits and the leading bankruptcy
treatise. “By its express terms, section 542(a) is selfexecuting, and does not require the trustee to take
any action or commence a proceeding or obtain a court
order to compel the turnover.” 5 Collier on
Bankruptcy ¶ 542.03 (16th ed. 2019).
B. The obligation of a creditor to turn over
estate property under § 542, even prior
to an adequate protection ruling, is
entirely consistent with pre-Code
practice and law.
The City argues that despite Whiting Pools and
the plain, mandatory language found in the Code,
§ 542 is not self-executing. It argues that pre-Code
law supposedly required an “order” of turnover, and
that adequate protection precedes turnover. From
this, it argues that unless—and until—there is an
adjudication of adequate protection, whenever that
may occur, a debtor is not entitled to turnover of the
critically needed property of the estate.
The City’s view of pre-Code law and practice is
decidedly incorrect. The genealogy of the turnover
obligation—and its intimate relationship with
protecting property of the estate—has been the focus
of the courts and Congress since at least 1935. The
unmistakable historical progression has consistently
been toward protecting reorganization by ensuring
that third parties turn over estate property promptly.
Indeed, it is the City’s view that would undo decades

16
of foundational principles and cause untold harm to
the bankruptcy system.
Prior to the adoption of the 1978 Code, § 257 of
the (prior) Bankruptcy Act,3 governed a debtor’s right
to immediate possession of property held by a
mortgagee.4 This section stated that upon the filing of
a bankruptcy petition, “the trustee or debtor in
possession shall also have the right to immediate
possession of all property of the debtor in the
possession of a trustee under a trust deed or a
mortgagee under a mortgage.” Kaplan, 185 F.2d at
795.
In Kaplan, the First Circuit examined § 257.
Waltham, a manufacturer of watches, filed a petition
for reorganization under Chapter X of the former
Bankruptcy
Act.5
Waltham
had
granted
Reconstruction Finance Corp. (“RFC”) a lien on
virtually all of its assets, including the parts
necessary to construct and finish watches. After the
debtor defaulted, RFC took possession of all of the
debtor’s plant, machinery, fixtures, equipment and
inventory. 185 F.2d at 792. The district court entered
an order permitting the trustee to take possession of
Act of June 22, 1938, § 257, ch. 575, 52 Stat. 840, 902 (1938)
(codified as amended at 11 U.S.C. § 657 (1976) (repealed 1978)).
3

“Section 542 of the present Bankruptcy Code is derived in part
from Section 257 of former Chapter X and from Section 507 of
former Chapter XII, but is much broader in scope.” In re Riding,
44 B.R. 846, 855 n.8 (Bankr. D. Utah 1984) (emphasis added).

4

Chapter X provided for a corporate reorganization. Act of June
22, 1938, §§ 101–276, ch. 575, 52 Stat. 840, 883 (1938) (codified
at 11 U.S.C. §§ 501–676 (1939) (repealed 1978)).

5

17
all of the property then held by RFC. Id. at 794. RFC
appealed the decision and challenged the right of the
district court to order the turnover. Id.
The First Circuit concluded that Congress had
granted the reorganization court “exclusive
jurisdiction of the debtor and its property, wherever
located” based on then Section 111 of Chapter X. Id.
It further held that this statutory grant was
constitutional, looking to the Court’s ruling in
Continental Illinois National Bank & Trust Co. v.
Chicago Rock Island & Pacific Railway Co., 294 U.S.
648 (1935), which affirmed the power of a
reorganization court to “control pledged collateral of
the debtor and property subject to mortgage.” Id. at
795.
Concluding that a reorganization court has
jurisdiction over a secured lender’s collateral, the
First Circuit recognized that turnover by the secured
creditor was critical to the entire notion of
reorganization. Hence, the court held that it was
essential that the secured creditor’s right to
possession be “postpone[d]” and that the creditor had
to “get[] out of the driver’s seat” in order for the
reorganization to work.6 185 F.2d at 796.
Section 542, enacted as part of the 1978 Code,
built upon the prior broadening of protection for
property of the estate. Section 542 added the express
duty of a creditor to turn over estate property by
As the Seventh Circuit points out, “Kaplan [did] not reach the
adequate protection question.” Thompson v. Gen. Motors
Acceptance Corp., 566 F.3d 699, 706 (7th Cir. 2009).
6

18
stating that the creditor “shall deliver” to the estate
the property that it had under its control. This made
more explicit that the debtor was entitled to
immediate possession and the creditor had a
substantive obligation to deliver the property. Thus,
§ 542 made significant changes in the text of the
turnover provision.7
Judge Friendly, writing for the Second Circuit in
Whiting Pools, stated that § 542 codified Kaplan.8 The
City argues that this must mean that § 542 is not selfexecuting. Pet. Br. 41. But the Second Circuit flatly
rejected the City’s argument in its more recent
statement of the law. See Weber v. SEFCU (In re
Weber), 719 F.3d 72,79 (2d Cir. 2013) (“Nor was [the
debtor] obligated to initiate an additional proceeding.
Section 542 requires that an entity in possession of
property of the estate deliver it to the trustees,
without condition or any further action: the provision
is ‘self-executing.’”).
There is no fair implication from pre-Code law,
nor from the text of § 542, that Congress intended to
permit creditors to retain estate property until their
adequate protection claims were resolved through
extensive and costly litigation. “[I]t is unlikely that
Congress, in creating the Bankruptcy Code, intended
to affirm any pre-petition convention that might have

“Where the words of a later statute differ from those of a
previous one on the same or related subject, the Congress must
have intended them to have a different meaning.” Bracewell v.
Kelley (In re Bracewell), 454 F.3d 1234, 1242 (11th Cir. 2006).
7

8

Whiting Pools, 674 F.2d at 155.

19
existed that allowed a creditor to retain possession of
an asset . . . while awaiting an adequate protection
determination.” Thompson, 566 F.3d at 706.
III. THE CITY’S

OBLIGATION TO TURN OVER THE

IMPOUNDED VEHICLES TO THE DEBTORS WAS NOT
SUBJECT TO A CONDITION PRECEDENT THAT THE
DEBTORS FIRST OBTAIN A COURT DETERMINATION
ON ADEQUATE PROTECTION.

A. A creditor is entitled to adequate
protection only if it complies with the
congressionally established procedures
and properly initiates a request for such
protection.
At the conclusion of Whiting Pools, the Court
stated, “[s]ection 542(a) simply requires the Service to
seek protection of its interest according to
congressionally established bankruptcy procedures,
rather than withholding the seized property from the
debtor’s efforts to reorganize.” 462 U.S. at 212
(emphasis added). Significantly, the Court added,
such protection only arises, if at all, on the “creditor’s
insistence”—that is upon the creditor’s motion. Id. at
204.
This statement encapsulates much of this case; a
creditor must look to the “congressionally established
bankruptcy procedures” for adequate protection. It is
the creditor that must seek such relief under the
congressional scheme. Id. The Court’s concluding
statement (“rather than”) indicates that a creditor is
not permitted to “withhold[] seized property” and

20
thereby damage the reorganization
contemplates and pursues its “defenses.”

while

it

The City, however, urges a decidedly different view
of the congressional scheme. The City’s argument
mirrors the short-hand notion from its amicus,
Professor Brubaker, who contends that “adequate
protection precedes turnover.” Ralph Brubaker,
Turnover, Adequate Protection, and the Automatic
Stay (Part I): Origins and Evolution of the Turnover
Power, 33 Bankr. L. Letter No. 8, at 6 (Aug. 2013). “A
consequence of this structural protection for the
rights of creditors is that a secured creditor’s
obligation to turn over estate property can become
judicially enforceable only following a turnover
proceeding.” Cert. Pet. 25.
This notion that a judicial determination of
adequate protection precedes turnover is wholly at
odds with the well-developed statutory scheme that
governs adequate protection. At the outset of a
bankruptcy case, a debtor has a largely unfettered
right to use all of the property of the estate in the
ordinary course of its business or affairs (other than
cash collateral) without any court order. 11 U.S.C.
§ 363(c). This includes property on which a creditor
has a lien.
However, if a creditor contends that it is entitled to
adequate protection, it is the creditor that must
initiate a demand for adequate protection. Section
363(e) requires the creditor to seek such relief:
“Notwithstanding any other provision of this section,
at any time, on request of an entity that has an

21
interest in property used, sold, or leased, or proposed
to be used, sold, or leased, by the trustee, the court,
with or without a hearing, shall prohibit such use,
sale or lease as is necessary to provide adequate
protection of such interest.” 11 U.S.C. § 363(e)
(emphasis added). The creditor has the burden of
proof on the issue of the validity of its lien and its
“interest” in estate property. 11 U.S.C. § 363(p)(2).
The Seventh Circuit correctly held below that “the
Code is clear that it is the creditor’s obligation to come
to court and ask for protection, not, as the City
advocates, the debtor’s obligation to file an adversary
proceeding against every creditor holding her
property at the time she files for bankruptcy.” Pet.
App. 16a; see also Thompson, 566 F.3d at 703–04
(holding that a secured creditor in a bankruptcy
proceeding bears the burden of requesting adequate
protection).
Until an adequate protection motion is filed and
granted, a creditor has no right to adequate
protection. While some courts grant adequate
protection motions retroactively to the petition date,
others only extend it from the date of the motion. 3
Collier on Bankruptcy ¶ 361.02 (16th ed. 2018). Even
when adequate protection is granted retroactively, it
is still extended only upon motion; adequate
protection is never automatic.

22
B. The City intentionally declined to seek
adequate protection.
The City did not comply with any of the
“congressionally established bankruptcy procedures”
pertaining to adequate protection and almost
certainly could not have met its burden of proof of a
valid lien or a valid interest. See 11 U.S.C. § 363(p)(2).
Instead, it held the debtors’ vehicles in order to exert
coercive leverage. Pet. App. 44a.
The undisputed factual findings established that:
(a) the City never sought adequate protection in any
of the cases; (b) in three of the cases the City did not
have a secured claim (in two such cases the court
found that the City did not even hold a legally valid
lien); and, (c) the City was not at risk that its
“collateral” would decline in value because its general
policy was to crush vehicles that were not redeemed.
Ms. Fulton’s case is illustrative. She filed a
motion for sanctions and turnover so that she could
afford alternative transportation, expressly relying
on § 542. Pet. App. 4a–5a. The City declined to move
for adequate protection. Id. at 5a (“At no point did the
City initiate proceedings to protect its rights under
§ 363(e).”).9 Ms. Fulton was unable to make her plan

The City claimed that because Ms. Fulton sought turnover by
motion and not an adversary proceeding, it did not need to assert
any right to adequate protection. Yet, it is widely agreed that the
failure to file an adversary proceeding instead of a motion is
“harmless error.” See, e.g., In re Canonsburg Envtl. Assocs. Ltd.,
72 F.3d 1260, 1264 (6th Cir. 1996).

9

23
payments, her case was dismissed, and she was
unable to obtain a discharge. J.A. 89.
The other cases followed a similar pattern. “[The
City] did not attempt in any of these cases, however,
to seek adequate protection of its interests through
the methods available under the Bankruptcy Code . .
. . At any point the City could have sought adequate
protection of its interests, but it chose not to avail
itself of the Code’s available procedures.” Pet. App.
15a. The same was true in Mr. Shannon’s case10 and
in Mr. Peake’s case.11
Separately, three of the four bankruptcy courts
found that the City did not have a valid possessory
lien and/or did not have a secured claim.12
Accordingly, in those cases the City was not entitled
to adequate protection because, as an unsecured
creditor, it did not have an “interest” in the debtor’s
property.13

“The court noted the City was free to file a motion seeking
adequate protection of its lien [but the City] did not file any such
motion.” Id. at 6a.
10

11 “At no point did the City file a motion to protect its interest in
[Mr. Peake’s ] vehicle.” Id.

See id. at 34a–39a (Howard); id. at 57a, 60a–62a, 152a
(Fulton); id. at 108a (Shannon).

12

General unsecured creditors are not entitled to adequate
protection. E.g. Franklin Fin. Corp. v. Baker (In re Baker), No.
14-71600-PMB, 2018 Bankr. LEXIS 3158, at *10 n.10 (Bankr.
N.D. Ga. Oct. 12, 2018).

13

24
One of the bankruptcy courts noted that the City
does not actually hold vehicles for re-sale if a debtor
does not redeem the vehicle. Instead, the City
destroys the vehicle by crushing it.14 Accordingly, the
vehicles had no true economic value to the City; thus,
the statutory requirement that debtor’s use of the
property “results in a decrease in the value of such
entity’s interest in such property” cannot be shown.
11 U.S.C. § 361(1)–(2).15
The debtors entered bankruptcy in a state of
demonstrable economic peril, which was only
exacerbated by the fines and failure to release the
vehicles.16 Conversely, no real harm would have been
incurred by the City had it complied with its

“[T]he vehicle, does not serve as a means of recouping debt . .
. , but rather an attempt to coerce repayment of exorbitant
parking debt as the City crushes rather than sells impounded
vehicles.” J.A. 226.
14

See United Sav. Ass’n of Tex. v. Timbers of Inwood Forest
Assocs., Ltd., 484 U.S. 365, 370 (1988) (holding that the “interest
in property” to which adequate protection applies only arises if
the property is depreciating in value because of the automatic
stay).

15

“The consequences of fines and fees can be dramatic and
unforgiving:
unemployment,
loss
of
transportation,
homelessness, loss of government or community services, and
poor credit. And without the ability to accumulate wealth or
capture even the smallest windfall for themselves, the poor
become poorer, unable to climb out of an economic chasm.” Torie
Atkinson, Note, A Fine Scheme: How Municipal Fines Become
Crushing Debt in the Shadow of the New Debtors’ Prisons,
51 Harv. C.R.-C.L. L. Rev. 189, 217–22 (2016).
16

25
obligation of immediate turnover. Indeed, the City’s
concern was not with preserving the value of the
debtors’ vehicles, but with preserving its leverage to
extract payments from Chapter 13 debtors. As the
Seventh Circuit found: “At bottom, the City wants to
maintain possession of the vehicles not because it
wants the vehicles but to put pressure on the debtors
to pay their tickets. That is precisely what the stay is
intended to prevent.” Pet. App. 14a.
IV. THE CITY’S REFUSAL TO TURN OVER THE
DEBTORS’ IMPOUNDED VEHICLES CONSTITUTED A
VIOLATION OF THE AUTOMATIC STAY.
A. The legislative history does not support
the view that the amendments to
§ 362(a)(3) were merely “technical
changes.”
The City has acknowledged that § 362(a)(3) can
be interpreted by its plain meaning. Pet. Br. 28.
However, the City disputes that the plain meaning of
exercising control embraces an intentional refusal to
turn over estate property as required by § 542.
Instead, the City argues that there is “ample
evidence” in the legislative history that the 1984
amendments were intended to effect “only limited,
technical changes,” Cert. Pet. 23, or were “clarifying
rather than substantive,” Pet. Br. 28. Based on this,
the City concludes that Congress must not have
intended that the amendment effect any meaningful
change in the law. These arguments are incorrect.
The 1984 amendments were not merely “technical”
but instead made important changes to the Code.

26
As a threshold matter, reliance on the legislative
history is not required here, both because the parties
agree that § 362(a)(3) may be interpreted in
accordance with its plain meaning, Pet. Br. 17, and
because courts have found the legislative history is
“cursory,” “undivinable” and “scarce.” See, e.g., In re
Denby-Peterson, 941 F.3d at 126–27 (stating that
§ 362(a)(3) is unambiguous, so resorting to legislative
history is unnecessary; and, that the “scarce
legislative history” fails to shed light on Congress’
intent).
The City’s amicus, Professor Brubaker, was, at
one time, certain that nothing was to be gained from
the legislative history: “[T]here is absolutely no
legislative history explaining Congress’s objective in
adding the intractably vague ‘exercise control’
language to § 362(a)(3).” Ralph Brubaker, Turnover,
Adequate Protection, and the Automatic Stay (Part II):
Who is “Exercising Control” Over What?, 33 Bankr. L.
Letter No. 9, at 3 (Sept. 2013).
Even though the legislative history is sparse—the
1984 amendments have substantial significance. At
least three circuit courts have rejected the notion that
the amendments were “limited technical changes.”
See Pet. App. 10a (“Congress amended § 362(a)(3) to
prohibit conduct that ‘exercised control’ over estate
assets. We determined this addition suggested
congressional intent to make the stay more inclusive
by including conduct of ‘creditors who seized an asset
pre-petition.’”) (citing In re Javens, 107 F.3d 359, 368
(6th Cir. 1997) and In re Del Mission Ltd., 98 F.3d
1147, 1151 (9th Cir. 1996), in which the Ninth Circuit

27
held that the 1984 amendments “broaden[ed] the
scope of § 362(a)(3) to proscribe the mere knowing
retention of estate property”); see also Thompson, 566
F.3d at 702 (“Further, Congress’s decision to
amend section 362 evinces its intent to expand the
prohibited conduct beyond mere possession.”).
The City’s assertion that the addition of new
language to § 362(a)(3) should be disregarded as
merely “technical” violates a key rule of statutory
construction: “When Congress uses different
language in a successor statute, the Court presumes
that Congress has changed its intent.” KENNETH KLEE
& WHITMAN HOLT, BANKRUPTCY AND THE SUPREME
COURT: 1801-2014, 17 (2015) (citing Crawford v.
Burke, 195 U.S. 176, 190 (1904) (“Our own view,
however, is that a change in phraseology creates a
presumption of a change in intent, and that Congress
would not have used such different language . . .
without thereby intending a change of meaning.”)).
And, “Congress need not document its specific actions
in elaborate fashion in order to direct this Court’s
attention to statutory policy and purpose.” Williams
v. Austrian, 331 U.S. 642, 661–62 (1947).
The City claims that there is “ample” evidence in
support of its position that the 1984 amendments
were merely technical; however, the only evidence
that it actually provides is sourced solely from the
1980 House Report, which pertains to a bill that never
passed. Pet. Br. 4, 28; see H.R. Rep. No. 96-1195
(1980), excerpts attached to this brief as Appendix B.
The language of this House Report, however, is itself
significant and reflects some important substantive

28
changes that were eventually enacted in 1984. The
introduction to this House Report shows that, while
some changes were in fact technical, there were
“several items of a substantive nature” that needed to
be dealt with at the “earliest possible time.” See H.R.
Rep. No. 96-1195 at 1–2 (1980).
Changes that were stylistic or technical were
often identified as such. For example, sections 17
through 23 of the House Report identify various
changes as “conforming,” “stylistic,” or to “correct[] a
typographical error.” Id. at 10.
Conversely, section 25(a) of the House Report (id.
at 10, 52) does not identify its changes as merely
technical or stylistic, but rather contains numerous
substantive revisions:
This amendment makes it clear that the
trustee’s rights to accept or reject executory
contracts and unexpired leases under section
365 are not affected by the automatic stay;
that the effect of the automatic stay on
judicial and administration proceedings runs
also to such “actions”; and that the automatic
stay against acts to obtain possession of
property of or from the estate also
encompasses acts to exercise control over such
property without the need for actually
obtaining such property.
Id. at 10 (emphasis added).
In codifying these numerous changes to § 362(a),
Congress substantially expanded the scope of the

29
automatic stay. Additionally, the House Report
proposed many other substantive changes to the
Code. Id. at 10–13.17
The City also incorrectly argues that to read the
amendments to § 362(a)(3) as expanding the
protection of the stay would somehow constitute a
“sea change” from “long-settled bankruptcy practice.”
Pet. Br. 4. 27. But this misperceives precisely what
was of most concern to the courts, well before 1984, in
connection with creditor retention of assets,
regardless of whether “passive” or not. The crucial
problem of “passive retention” of seized collateral by
creditors concerned the courts since at least 1935. In
the two leading cases, Whiting Pools and Kaplan, no
evidence existed that the creditors had undertaken
any specific “active” steps other than refusing to turn
over collateral. This refusal alone was precisely what
made reorganization impossible, and thus defeated
one of the central goals of bankruptcy practice.
Congress added § 542 to deliberately broaden the
turnover provision and avoid this harmful outcome.
This is precisely why “exercising control” embraces
fully the notion of a refusal to turn over property.
Section 362(a)(3) did not add some additional

As additional examples, these proposed amendments
pertained to the relationship between the automatic stay and
section 365 on executory contracts; id. at 51; the excepting from
the stay of the setoff of mutual debts and claims of a commodity
broker, id. at 52, alterations on the grounds for relief from the
stay, id, at 53, and the definition of “new value” under the
preference section, id. at 85.
17

30
requirement of an act beyond the refusal to comply
with § 542.
B. The City’s argument that the 1984
amendment was only intended to add
“intangible property” is incorrect.
Having first argued that legislative intent is
undivinable, the City contradicts itself by arguing
that the 1984 amendments had an important (albeit
mostly unexpressed) substantive purpose to make
control of “intangible property” subject to the
automatic stay. Pet. Br. 15, 30–31.
The City’s amicus has a more extreme view.
Despite having initially stated that the legislative
history offered no evidence of any discernible intent,
Professor Brubaker contends that five years later he
“discovered” that the legislative history demonstrated
that the amendments to § 362(a)(3) were meant only
to apply to “intangible property.”18 Indeed, it is largely
based on this ‘discovery’ that the City, and its amici,
argue their highly limited view of § 362(a)(3). See Pet.
Br. 15 (arguing the same).
The City and its amici are incorrect in arguing
that the only, or primary purpose of Congress, in
enacting the 1984 amendments was merely to extend
the stay to include intangible property. There was no
need for Congress to further belabor that point, as
Ralph Brubaker, Turnover, Adequate Protection and the
Automatic Stay: A Reply to Judge Wedoff, 38 Bankr. L. Letter
No. 11, at 2 (Nov. 2018); see Brief of Amici Curiae Professors
Ralph Brubaker et al., at 28.
18

31
both the legislative history and judicial rulings, even
pre-1984, fully reflected that the automatic stay
already extended to intangible property.
The legislative history to § 541 expressly stated,
well before 1984, that the phrase “property of the
estate” was intended to include “intangible property”
and thus enjoyed the protection of the automatic stay
well before the 1984 amendments to § 362(a)(3). See
H.R. Rep. No. 95-595, at 367–68 (1977); S. Rep. No.
95-989, at 82-83 (1978).19
Additionally, courts have regularly held—even
prior to 1984—that the automatic stay applies to
intangible property, and have even noted in some
decisions that intangible property can be possessed. 20
See, e.g., R.S. Pinellas Motel P’Ship v. Ramada Inns,
Inc. (In re R. S. Pinellas Motel P’ship), 2 B.R. 113, 118
(Bankr. M.D. Fla. 1979) (citation omitted):
Intangible property rights, e. g. rights
acquired under a license agreement are
“[Property of the estate] includes all interests, such as
interests in real or personal property, tangible and intangible
property, choses in action, causes of action, rights such as
copyrights, trade-marks, patents, and processes . . . .” H.R. Rep.
No. 95-595, at 175 (1977).
19

20 See also Schokbeton Indus., Inc. v. Schokbeton Prods. Corp. (In
re Schokbeton Indus., Inc.), 466 F.2d 171, 177 (5th Cir. 1972)
(“We do not doubt that in some circumstances intangible
property rights are subject to ‘possession’ by the debtor and
therefore fall within the equitable jurisdiction of the
referee. Katchen v. Landy, 1966, 382 U.S. 323 . . . ; 2 Collier,
Bankruptcy, ¶ 23.05.”).

32
properties of the estate and are capable of
possession. Thus, an attempt to cancel such
rights, after the commencement of the case
may come within the protective provisions of
the Code under subclause (a)(3) of Sec. 362; 11
U.S.C. § 362. This is so because the
cancellation of the License Agreement may be
deemed to be an attempt to obtain possession
of “property” of the estate.21
Moreover, the City’s argument contradicts the
explicit legislative history of § 362(a)(3):
This amendment makes it clear that . . . the
automatic stay against acts to obtain
possession of property of or from the estate
also encompasses acts to exercise control over
such property without the need for actually
obtaining such property.
H.R. Rep. No. 96-1195 at 10 (1980) (emphasis added).

See also Elec. Realty Assocs., Inc. v. ERA Cent. Reg’l Servs.,
Inc. (In re ERA Cent. Reg’l Servs., Inc.), 39 B.R. 738, 740 (Bankr.
C.D. Ill. 1984) (holding that intangible contract rights could be
“possesse[d]” and were subject to the automatic stay); Varisco v.
Oroweat Food Co. (In re Varisco), 16 B.R. 634, 637 (Bankr. M.D.
Fla. 1981) (“It appears from the legislative history of this Section
that the scope of the Section was intended to be broad and was
designed to include all kinds of property tangible or intangible,
chose of actions, and of course, contract rights and rights based
on executory contracts.”).
21

33
The reference to “such property” is key. “Such” is
defined as meaning “having just been mentioned.”
Such, BLACK’S LAW DICTIONARY (11th ed. 2019). What
was “just mentioned” was property of the estate,
which the aforementioned legislative history makes
clear includes both tangible and intangible property.
Congress was expanding the covered range of “acts”
but was not expanding the range of “property types.”
Further, the Court should not adopt the notion
that § 362(a)(3) uses the phrase “property of the
estate” to have two different meanings, despite
occurring in the same sentence, as the city argues.
Hall v. United States, 566 U.S. 506, 519 (2012) (“At
bottom, ‘identical words and phrases within the same
statute should normally be given the same
meaning.’”); Cohen v. de la Cruz, 523 U.S. 213, 220
(1998) (stating there is a “presumption that
equivalent words have equivalent meaning when
repeated in the same statute”).

34
CONCLUSION
For the foregoing reasons, we respectfully request
that this Court affirm the decision of the Seventh
Circuit.
Dated: March 10, 2020
Respectfully submitted,
David R. Kuney
Counsel of Record
9200 Cambridge Manor Court
Potomac, MD. 20854
301-299-9544
Davidkuney@dkuney.com
Mary Joanne Dowd
ARENT FOX LLP
1717 K Street, NW
Washington, D.C. 20006
202-857-6000
mary.dowd@arentfox.com
Attorneys for Amici Curiae

APPENDIX

TABLE OF CONTENTS TO APPENDIX
List of Amici Curiae Law Professors……………………A1
H.R. Rep. No. 96-1195 (1980) (Excerpted).........….B2

A1
Appendix A
List of Amici Curiae Law Professors
Matthew Bruckner
Associate Professor
Howard University Law School
Margaret Howard
Law Alumni Association Professor of Law, Emerita
Washington and Lee University School of Law
Edward Janger
David M. Barse Professor of Law & Associate Dean
for Faculty Research and Scholarship
Brooklyn Law School
David R. Kuney
Adjunct Professor of Law
Georgetown University Law Center
Adam J. Levitin
Agnes N. Williams Research Professor and
Professor of Law
Georgetown University Law Center
Bruce A. Markell
Professor of Bankruptcy Law and Practice.
Northwestern Pritzker School of Law
Jack F. Williams
Professor of Law
Georgia State University College of Law

B2
Appendix B
H.R. REPORT NO. 96-1195 (1980) (Excerpted)
AN ACT TO CORRECT TECHNICAL ERRORS,
CLARIFY AND MAKE MINOR SUBSTANTIVE
CHANGES TO PUBLIC LAW 95-598
The Committee on the Judiciary, to whom was
referred the bill (S. 658) to correct technical errors,
clarify and make minor substantive changes to Public
Law 95-598, having considered the same, report
favorably thereon with an amendment and
recommend that the bill as amended do pass.
The amendment to the text of the bill is a
complete substitute therefor and appears in italic
type in the reported bill.
INTRODUCTION
The Bankrupty Reform Act of 1978 has now been
in effect less than one year. It is clear even at this
early time in the life of this law that technical
amendments are required. Errors in printing,
spelling, punctuation, grammar, syntax, and
numeration arose in the bill as enacted because of the
last-minute process of change through which the bill
went when considered at the closing sessions of the
95th Congress.
These same last-minute changes also resulted in
the enactment of a bill that contains incongruent
provisions; material that was removed from earlier
versions remained as either cross-references or
antecedents for provisions changed or inserted. And,

B3
material added often was not completely integrated
into the total fabric of the bill as enacted.
Page 2
Such matters consitute the vast Majority of the
subject of the Technical Amendments Act. In
addition, however, there are several items of a
substantive nature which are included because : (1) it
was intended that the particular subject was to be
dealt with at the earliest possible time after the
enactment of the Bankruptcy Before Act in connection
with whatever technical amendments would be
considered; (2) further conforming changes were
found to be necessary to complete the legislative work
intended by the Bankruptcy Reform Act; (3) the
treatment of a subject in the Bankruptcy Reform Act
was found to be incomplete; or (4) there was
overlooked some minor yet relevant matter. In each
case the change proposed is consistent with policies
adopted by Congress in its enactment of the
Bankruptcy Reform Act.
Even with these substantive matters included
and noting that they are consistent with the
Bankruptcy Reform Act, nevertheless it is important
to repeat that the Act as amended by this bill
continues to represent a finely tuned and balanced
treatment of the respective interests of debtors and
creditors. Every effort has been made to abstain from
reacting legislatively at every call for change and to
maintain existing policy intact. At this .time, there
are known areas of bankruptcy activity which give the
Committee concern and which the Committee intends
to monitor closely. However, it is also premature to
change a statute that has been in effect for such a

B4
short period of time where it is not really known to
what extent these concerns are other than transitory.
BANKRUPTCY JUDGE’S RETIREMENT
H.R. 8200, as reported by the Committee during
the 95th Congress, contained provisions to reorganize
bankruptcy courts and include them within the
category of United States courts subject to the
standards of Article II of the Constitution. S. 2266,
the bill passed by the Senate during the 95th
Congress, which eventually became Public Law 95598 (the Bankruptcy Reform Act of 1978), did not
contain such provisions. Numbered among the
provisions contained in H.R. 8200 were those which
would have provided for retirement of bankruptcy
judges. When this general subject was resolved
between the House and the Senate, the matter of
bankruptcy judge’s retirement was eliminated with
the understanding that at the earliest possible time it
would be dealt with.
There are two classes of United States judges: life
tenure; and fixed term tenure. Notwithstanding, all
United States judges, for retirement purposes,
participate in what loosely may be called “judicial
retirement.” The essential characteristics of this
retirement system are: (1) it is noncontributory; (2)
eligibility for retirement at 100 percent of the salary
a judge received at the time of retirement is based
upon the reaching of seventy years of age with 10 or
more years of service, or sixty-five years of age with
15 or more years of service; and, in the case ‘of fixed
term judges, (3) provision for 100 percent or less
benefits in the event of failure of reappointment.

B5
Bankruptcy judges presently are participants in
the civil service retirement system. The essential
characteristics of this system are: (1) it is
contributory; (2) benefits accrue at the rate of
approximately
Page 3
2 percent per year for each year of service; (3) benefits
are available only after the participant has reached
the age of sixty-two years; and (4) there is an 80
percent cap on the amount of benefits receivable. The
civil service retirement system does not provide an
equitable basis for retirement for bankruptcy judges
vis-a-vis other United States judges.
The civil service system is predicated upon an
individual’s coming to work for the Federal
government at an early age, usually in a person’s
early twenties. The average age of bankruptcy judges
ascending to the bench is forty-five.
The overwhelming opinion on this subject,
including that of the Judicial Conference of the
United States, is that bankruptcy judges should
participate in the judicial retirement system.
Differences of opinion exist regarding the extent to
which credit for service should be given for service as
a bankruptcy judge during the transition period (that
time between the enactment of the Bankruptcy
Reform Act and the taking effect of the new
bankruptcy court created under that Act) and for
service as a referee in bankruptcy prior to the
enactment of the Bankruptcy Reform Act. This’ bill
strikes a compromise between the position of giving
such judges 100 percent credit for all such prior
service and only allowing the participation in the

B6
judicial retirement system based upon service on the
new court beginning April 1, 1984.
A complicated formula with a number of
conditions and limitations has been Created. The
objective of this scheme is to not only provide an
equitable basis for bankruptcy judges’ retirement, but
also to act as an incentive to keep on the bench the
experience and ability of bankruptcy judges presently
sitting. It is also important to understand that the
System by which bankruptcy judges will be chosen
has been changed by the Bankruptcy Reform Act.
This change will undoubtedly have an adverse effect
upon the ability of bankruptcy courts to retain some
of the most knowledgeable and experienced of the
bankruptcy judges.
Under the law that was repealed by the
Bankruptcy Reform Act, bankruptcy judges were
selected by the judges of the United States districtcourt for the district wherein the bankruptcy judge
would serve. Under the Bankruptcy Reform Act,
bankruptcy judges will be nominated by the
President. This change should not, in the best of all
possible worlds, have the effect of displacing such
experienced and knowledgeable judges. However, as
this can be the case, enhancing bankruptcy judges’
retirement will be an incentive for judges to seek
presidential appointment and remain on the bench for
a longer period of time.
The numerator for computing the amount of
salary payable to a judge who is not reappointed at
the end of his term is changed from sixteen years to
‘fourteen years to conform to the term’ of office of a
bankruptcy judge appointed under the Bankruptcy
Reform Act.

B7
Incumbent bankruptcy judges are given full
credit for all service prior to April 1, 1984, for the
purpose of determining eligibility for benefits, but the
rate of accrual of salary payable to a bankruptcy judge
upon relinquishing office by resignation or upon
failure of reappointment is substantially less for
service prior to November 6, 1978, the date of
enactment of the Bankruptcy Reform Act.
The formula for computing the rate of accrual of
salary payable to a bankruptcy judge upon
relinquishment of office, if he meets the age and
length of service requirements for benefits, is 1/28 for
service as a
Page 4
bankruptcy judge prior to November 6, 1978 and 1/14
for service as a bankruptcy judge on and after that
date. The difference in the rate of accrual of benefits
for service as a bankruptcy judge prior to November
6, 1978 and for such service thereafter is adopted in
recognition, of the fact that the duties and
responsibilities of the office of bankruptcy judge and
the stature and jurisdiction of the bankruptcy court
were greatly enhanced by the Bankruptcy Reform Act
of 1978. The 1/14 formula will apply to all service as a
bankruptcy judge prior to April 1, 1984 by a
bankruptcy judge who is reappointed after that date
if such a judge continues in service as a bankruptcy
judge for a period of five years after the date of his
reappointment or until he attains the age of seventy
years.
Upon enactment of this bill an incumbent
bankruptcy judge who is or may become eligible for
benefits under section 373 of title 28 of the United

B8
States, Code may elect coverage under that section,
without regard to the date of such eligibility. To
prevent so-called double-dipping, the election of
benefits under section 373 voids the annuity rights of
a bankruptcy judge under any other Federal
employee pension plan.
An incumbent bankruptcy judge who has elected
the benefits of section 373 of title 28 of the United
States Code, but who has not attained the age of sixty
five years prior to April 1, 1984, forfeits all rights to
future payments under that section unless such judge
has filed with the President, the President of the
Senate, and the Director of the Administrative Office
of the United States Courts before April 1, 1984, a
written notice agreeing to accept appointment as a
bankruptcy judge after such date and, if offered such
appointment, accepts such appointment.
The right of incumbent bankruptcy ,judges who
meet the length of service requirements of section 373
of title 28 of the United States Code, to resign and
receive payments under that section prior to April 1,
1984, is restricted to two categories of judges—(1)
those judges who have attained the age of seventy
years, and (2) any judge who has attained the age of
sixty-five years and provides the Director of the
Administrative Office of the United States Courts a
certificate of disability signed by the chief judge of the
circuit. Otherwise, incumbent bankruptcy judges are
precluded from receiving benefits under the section
prior to April 1, 1984.
Upon enactment of this bill, incumbent
bankruptcy judges will become judges of the United
States, which would ordinarily make them ineligible
for continued coverage under the Civil Service
Retirement system. However, the right of a

B9
bankruptcy judge continued in office by section 404
(b) of the Bankruptcy Reform Act of 1978 to retain
coverage under the Civil Service Retirement system
served until such time as he elects coverage under
section 373 of title 28 of the United States Code.
The term “bankruptcy judge” is defined to include
a referee in bankruptcy to make it clear that all
service as a referee in bankruptcy is includible for
purposes of this section.
A definition of “reappointment” to include
appointment to the new bankruptcy court which
comes into existence on April 1, 1984 is included to
make clear the fact that incumbent bankruptcy
judges, whose terms expire at the end of the transition
period, who are not
Page 5
appointed to the new court by the President
immediately following the transition period are
deemed to have failed of reappointment for the
purposes of this section.
The word “retires” and “retirement” are used in
this section in a broad generic sense and are intended
to include voluntary resignation or involuntary
resignation because of failure of reappointment.
An incumbent bankruptcy judge who, after
continuing to serve throughout the transition period,
fails of reappointment, and who at the time of
relinquishing office has fourteen or more years of
service as a bankruptcy judge, is eligible to receive
benefits under this section before attaining the age of
sixty-five years. However, the salary payable to such
judge shall be reduced by one-sixth of one percent for

B10
each full month such judge is under sixty-five years of
age at the time he relinquishes office.
MUNICIPAL FINANCING
In structuring the Bankruptcy Reform Act, one of
the objectives, simplification, was achieved by
consolidating into one chapter (11) a number of the
previously separate provisions dealing with
reorganizations. Now, there are only four distinct
types of proceedings under title 11: liquidation, under
chapter 7; adjustment of debts of a municipality,
under chapter 9; reorganization, under chapter 11;
and adjustment of debts of individuals with regular
income, under chapter 13. This organizational
arrangement, however, required that the general
provisions contained in chapters 1, 3, and 5 either be
made applicable or inapplicable, as was appropriate.
One such provision, contained in section 552,
deals with the post-petition effect of a security
interest. n arriving at the treatment of this subject as
it did, the Bankruptcy Reform Act expressed the
general policy that upon the filing of a petition in
bankruptcy, except for proceeds, there would be no
post-petition effect of a security interest. The central
frame of reference for this decision was commercial
transactions and the recognition and acceptance of
after-acquired property clauses by the Uniform
Commercial Code (adopted universally by the States,
with the exception of Louisiana). This provision was
made applicable to a proceeding under chapter 9.
After the enactment of the Bankruptcy Reform
Act, attention was called to the fact of this
applicability and that as a result certain municipal
bondholders’ interests in specific funds might be

B11
jeopardized in the event of the filing of a petition by
the municipality under chapter 9. Revenue bonds
issued by a municipality are in effect longer term
secured obligations, the security for which is a specific
fund(s). The bond indenture is the security agreement
setting forth the security interest which, invariably,
contains a provision for the repayment of the bond
obligation from a specific fund(s) as such fund(s) is
generated from time to time. Therefore, with section
552 applicable in a chapter 9 proceeding, upon the
filing of a petition by a municipality, bondholders’
rights to the specific fund(s) would be impaired.
S. 658 as enacted by the Senate contains a
provision, a new section 928, designed to overcome the
potential limiting effect section 552 would have on
municipal revenue bonds in the event of the filing of
Page 6
a petition by a municipal issuer of such securities.
Because this Senate-proposed section 928 deals only
with traditional revenue bonds and not other forms of
municipally issued securities secured by specified
funds, concern was raised that the Senate’s section
928 of S. 658 was not adequate. In seeking to
eliminate section 552’s limiting effect upon all
municipal securities secured by specified funds,
whether of the traditional revenue bond type, or some
other type, the Committee sought a way to do this
without placing itself in the position of making any
express representation to States and municipalities
regarding the character or quality of their securities
under non-bankruptcy law. The Committee believes
that it was not the intent of Congress in the
enactment of the Bankruptcy Reform Act of 1978 to

B12
make any such representations. Therefore, it has
chosen to deal with the limiting effect of section 552
by deleting the reference to it from section 901,
removing from application in a chapter 9 proceeding
the operation of that section.
Further, the Committee believes that it was not
the intent of Congress in the enactment of 547(e)(3) to
penalize holders of municipal securities which are
secured by future receipts of the issuer. The deletion
from section 901 of the reference to section 547(e)(3)
would avoid allowing such payments to be classified
as voidable preferences under section 547.
STOCKBROKER/COMMODITY BROKER LIQUIDATORS
Prior to the enactment of the Bankruptcy Reform
Act special provisions existed in the bankruptcy laws
for liquidations of stockbrokers. Much of this prior
law served as the basis for what has become
subchapter III of chapter 7 in the new Bankruptcy
Code. The new subchapter IV, dealing with
commodity broker liquidations, is new and not based
upon any prior treatment under the repealed
Bankruptcy Act. These subchapters were intended to
provide comparable treatment for stockbroker and
commodity broker liquidations. Moreover, it also was
intended that in the event of a bankruptcy involving
such an entity, the operations of the respective
securities and commodities markets would be affected
only minimally, i.e., that the financial failure of any
one such entity would not have such an affect upon an
entire marketplace so as to pose the potential for a
massive disruption of the entire industry. However,
quite soon after the enactment of the Bankruptcy
Reform Act it was brought to the Committee’s

B13
attention that the provisions in subchapters III and
IV fell short of their intended mark. In short, the
integrity of the securities and commodities markets
was not adequately protected; and there was not
comparability between the provisions, of subchapters
III and IV.
There are a number of provisions in the bill which
pertain to stockbrokers, securities clearing agencies,
commodity brokers and forward contract merchants.
These are intended to clarify the application to these
entities of certain provisions contained in the
Bankruptcy Reform Act. The Bankruptcy Reform Act
provides a number of protections to commodity
brokers and commodity clearing organizations, and
several amendments have been made to clarity that
these
Page 7
game protections are intended to apply to
stockbrokers and securities clearing agencies. The
overall purpose of these provisions is to preserve the
financial integrity of the nation’s commodity and
securities markets.
Provision was also necessary to clarify that the
automatic stay provision does not affect the setoff of
mutual debts and claims which relate to commodity
contracts, forward contracts, leverage transactions or
securities contracts; nor does it prevent setoffs
against customer property held by a commodity
broker, forward contract merchant, stockbroker or
securities clearing agency for claims which are
margin or settlement payments.
Related amendments also preserve the
contractual rights of stock-brokers, securities clearing

B14
agencies, commodity brokers and forward contract
merchants to liquidate a debtor’s account,
notwithstanding the automatic stay of Section 362, or
any other provision of Federal or State law or court
order, unless the court order is authorized under the
Securities Investor Protection Act of 1970 (15 U.S.C.
78aaa et seq.) or is required because of a threat to the
national security.
In Subchapter III, Section 749 has been amended
to give the Securities and Exchange Commission the
power to approve specified transfers so approved may
not be avoided by the trustee. This authority
corresponds to the authority given to the Commodity
Futures Trading Commission in Section 764(b).
In Subchapter IV, the definition of “customer” has
been amended to delete the reference to debtor and
substitute in its place a broader reference. Under the
previous definition, only an entity which was a debtor
could have a customer. Such a result would have
defeated the broad protections intended to be
provided by the Act. Other clarifying amendments
have been made to several of the definitions to be sure
that if trading in commodity options is approved by
the CFTC, such trading will be included within the
scope of Subchapter IV provisions.
It is also made clear that the trustee may not
avoid as a preference or fraudulent transfer, a margin
payment, deposit or settlement payment made by or
to a commodity broker, forward contract merchant,
stockbroker or securities clearing agency, unless the
payment is both made and received with intent to
defraud.
Finally, Subchapter IV of chapter 7 has been
amended to clarify that the proprietary accounts of
commodity brokers are not entitled to share in any

B15
distribution from the customer property estate until
such time as all other customer net equity claims have
been paid in full.
TAX PROVISIONS
The Bankruptcy Reform Act’s repeal of the former
Bankruptcy Act removed from applicability the
special provisions for treatment of tax consequences
of transactions arising in a bankruptcy context. This
was done with the view that soon after the enactment
of the Bankruptcy Reform Act there would be
considered bankruptcy tax legislation. However, to
initiate the process whereby such tax legislation
would be considered, there was included in section
346 a number of provisions designed to identify a
basis upon which tax consequences could be
determined.
Page 8
With the consideration of the Technical
Amendments Act, this tax legislation has not yet been
fully considered and the provisions of section 346,
therefore, exist in a vacuum.
These section 346 provisions are being removed
with the intention that (1) there should be a uniform
treatment of tax consequences in bankruptcy under
both State and federal law, (2) federal tax legislation
should be considered at the earliest possible time, and
(3) until such legislation is enacted it is most desirable
that tax consequences of bankruptcy should be dealt
with as they ,were under the former Bankruptcy Act.

B16
SECTION-BY-SECTION ANALYSIS
TITLE I
Section 1(a). This amendment deletes a
redundancy.
Subsection (b). This amendment corrects a
typographical error.
Subsection (c). This amendment corrects the
cross-references identifying the types of claims to be
treated as pre-petition claims to include certain
preconversion and co-debtor claims.
Subsection (d). This amendment corrects an
omission by providing the connective to assure that
“entity” is defined to include all of the types specified.
Subsection (e). This amendment corrects a
typographical error.
Subsection (f). This amendment to the definition
of “insolvent” with reference to a partnership clarifies
that it is the general partner nonpartnership property
that is the subject of valuation eliminating the
ambiguity presented by the use of the term “separate”
which allowed for the reference to noncommunity
property in a community property stae; substitutes
the indefinite article with reference to the types of
property excluded from the valuation; and adds a
cross-reference to include all property appropriately
to be excluded from the valuation.
Subsection (g). This amendment redesignates
paragraphs (35), (36), (37), (38), (39), and (40) to allow
for the addition of two new definitions; and adds as
one of the new paragraphs a definition for “securities
clearing agency” to facilitate the treatment of
stockbroker bankruptcies under subchapter III of
chapter 7.

B17
Subsection (h). This amendment clarifies that,
the term “security” is applicable to the designated
contract or interest if such is required to be the
subject of a Securities Act registration statement
whether or not it is so subject.
Subsection (i). This amendment corrects the name
of a type of contract excluded froth the definition of
“security”.
Subsection (j). This amendment makes a stylistic
change in the cross-reference; and clarifies that the
contract or certificate excluded from the definition of
“security” is not required to be the subject of a
Securities Act registration statement whether or not
it is so subject.
Subsection (k). This amendment adds a new
paragraph, which provides a definition for “State”
primarily to assure that residents and domiciliaries of
Puerto Rico can become debtors under title 11.
Subsection (l). This amendment makes a stylistic
change.
Subsection (m). This amendment makes a change
in punctuation to allow an additional paragraph to be
added.
Page 9
Subsection (n). This amendment adds a new
paragraph which provides a definition for “United
States” to assure that title 11 is applicable wherever
the judicial jurisdiction of the United States extends.
Section 2. This amendment corrects a
typographical error.
Section 3(a). This amendment corrects a
typographical error.

B18
Subsection (b). This amendment deletes a crossreference that does not exist.
Section 4(a). This amendment clarifies that time
period alternatives are in a correlative not
conjunctive relationship with each other.
Subsection (b). This amendment clarifies that
statutes of limitations and court ordered deadlines
tolled in this section as a result of the filing of a
petition under title 11 do not include those contained
in title 11.
Section 5(a). This amendment deletes a
redundancy.
Subsection (b). This amendment makes a stylistic
change.
Subsection (c). This amendment corrects a
typographical error.
Section 6. This amendment makes it clear that an
involuntary petition may be filed only against a
person.
Section 7. This amendment corrects a
typographical error.
Section 8. This amendment substitutes the
definite article for the indefinite article so as to limit
an examiner from being appointed as trustee in the
case in which the person was appointed examiner.
Section 9. This amendment makes it clear that
the amount of the bond the court is to determine is
with reference to the bond the trustee is required to
file.
Section 10(a). This amendment corrects an
omission.
Subsection (b). This amendment makes a stylistic
change in the organization of the provision
establishing bases upon which the court may deny

B19
trustees’ expenses; and makes a change to allow such
a denial with providing for such a denial for only both.
Section 11. This amendment corrects an omission
by providing that an examiner as well as trustee may
employ professional persons to assist in the conduct
of the examiner’s responsibilities.
Section 12. This amendment makes a stylistic
change.
Section 13(a). This amendment allows an
attorney to request payment for prepetition services
rendered either in contemplation of or in connection
with the case as compared with services rendered only
for both.
Section 14. This amendment deletes an
unnecessary identification of notice recipients since
the rule of construction in Section 102 is applicable;
and makes a stylistic change in the standard for
compensation of officers.
Section 15. This, amendment and the following
amendment reverse the order of these sections to
reflect the logic of providing first for notice and then
for meetings rather than the reverse; and includes in
the notice recipients persons whose claims might not
be against the debtor but which nevertheless are to be
satisfied out of property of the estate, i.e., persons
having community claims, and who, therefore, might
not otherwise receive notice.
Section 16(a). This is the second amendment
mentioned in the above paragraph reversing the order
of the notice and meeting sections. This
Page 10
amendment also makes it clear that a meeting of
creditors in a chapter 13 ease is not mandatory.

B20
Subsection (b). This amendment makes the
necessary changes in the table of sections to conform
to the inversion of sections made by this and the
previous amendment.
Section 17. This amendment makes a conforming
change in the cross-reference to reflect the inversion
of the notice and meeting sections; and also corrects a
typographical error.
Section 18. This amendment adds a new
subsection to make it clear that those with whom
money of the estate is deposited or invested are
empowered to protect such moneys by deposit or
investment.
Section 19(a). This amendment corrects a
typographical error.
Subsection (b). This amendment deletes a crossreference to reflect the deletion of the cross-referenced
material.
Subsection (c). This amendment deletes
provisions establishing the basis upon which state
and local taxes are to be imposed as a result of
bankruptcy proceedings because it is not in
conformity with Federal tax law treatment of the
same transactions and it is intended that there be this
conformity. At the time of the enactment of this law
Federal tax law treatment of these transactions has
not finally been determined but when such has
occurred conforming amendments will be made to this
statute. It is also intended that until such conforming
amendments are made Federal, State, and local tax
law treatment of these transactions is best
undertaken as though the former law under the
Bankruptcy Act had not been repealed.
Section 20. This amendment makes a stylistic
change.

B21
Section 21. This amendment makes a stylistic
change.
Section 22. This amendment makes conforming
change’s in cross-references to reflect organizational
changes in the provisions dealing with exemptions
under section 522.
Section 23. This amendment corrects a
typographical error.
Section 24. This amendment makes it clear that
adequate protection can be effected by one or more
cash payments made to a secured creditor whose
property the trustee uses, sells, or leases.
Section 25(a). This amendment makes it clear
that the trustee’s rights to accept or reject executory
contracts and unexpired leases under section 365 are
not affected by the automatic stay; that the effect of
the automatic stay on judicial and administrative
proceedings runs also to such “actions”; and that the
automatic stay against acts to obtain possession of
property of or from the estate also encompasses acts
to exercise control over such property without the
need for actually obtaining such property.
Subsection (b). This amendment makes it clear
that the automatic stay does not operate to prevent a
purchase money security interest from being
perfected after the time of the filing of the petition if
it is perfected as a purchase money security interest
pursuant to the requirements for such under the
Uniform Commercial Code with respect to which this
amendment conforms; makes stylistic and conforming
changes in the exception to the automatic stay
concerning setoffs of certain securities and
commodities transactions, and also excepts from the
operation of the automatic stay certain securities and

B22
commodities margin transactions; makes a stylistic
change in the
Page 11
reference to the Secretary of Housing and Urban
Development; makes several changes to accommodate
the addition of two new subsections; adds a new
subsection excepting from the operation of the
automatic stay a creditor’s right to renew the
effectiveness of an existing filing to protect the
perfection of a security interest; and makes a
conforming amendment to make it clear that the
automatic stay is not intended to interfere with the
rights of a holder of a negotiable instrument to obtain
payment.
Subsection (c). This amendment clarifies that
time period alternatives are in a correlative not
conjunctive relationship with each other.
Subsection (d). This amendment makes it clear
that the stay relief from which is available under this
subsection is the stay provided for under subsection
(a); and makes it clear that relief from the stay is
available where the property with respect to which
such relief is requested is not required to accomplish
any objective of a plan under either chapter 11 or 13.
Subsection (e). This amendment makes it clear
that relief from the automatic stay should follow from
the interested party’s initiative, not the court’s sua
sponte, and that such relief is available upon an ex
parte basis if the facts and circumstances justfiy the
invocation of the court’s extraordinary powers in
equity until such time as there is an opportunity for
an adversary hearing.

B23
Section 26(a). This amendment makes it clear
that the limitations upon a trustee’s ability to use,
sell, or lease property and the greater protections
afforded a secured creditor by virtue of the special
provisions concerning “cash collateral” apply even
though the property comes into existence after the
filing of the petition and even though the property is
a transmuted form of the property originally subject
to the creditor’s security interest.
Subsection (b). This amendment deletes the
provision concerning burden of proof and transfers it
to a separate subsection to emphasize its importance;
and makes it clear that limitations upon the trustee’s
power to use, sell, or lease property, as provided for in
other subsections, may be made with or without a
hearing, depending upon the conditions and
circumstances.
Subsection (c). This amendment makes it clear
that one of the conditions upon which the trustee may
sell property free and clear of liens is when the price
realized upon such a sale is greater than the value of
all of the encumbrances.
Subsection (d). This amendment makes it clear
that when the trustee sells property in which the
estate holds a joint interest, that joint interest shall
have been severed when the property became
property of the estate and the other (non-estate) jointowner shall receive from the sale an aliquot portion of
the proceeds, not an actuarially determined amount.
Subsection (e). This amendment corrects a
typographical error.
Subsection (f). This amendment makes it clear
that a secured creditor is entitled to bid in at the sale
where the property subject to such creditor’s lien is
sold.

B24
Subsection (g). This amendment corrects several
typographical errors; and makes it clear that the
trustee’s right to use, sell, or lease
Page 12
property is not affected by, inter alia, the appointment
of or the taking possession by a custodian as
compared with the appointment and the taking of
possession by such a custodian.
Subsection (h). This amendment makes several
stylistic changes.
Subsection (i). This amendment isolates for
purposes of emphasis the burdens of proof placed
upon the trustee and others concerning adequate
protection and the interest to be protected.
Section 27(a). This amendment makes it clear
that ipso facto clauses are equally inoperative in
instances where they are contained in contracts or
leases entered into by an under of the debtor and are
sought to be exercised because of the debtor’s
financial condition where such property may be of
value to the debtor.
Section 27(b). This amendment makes it clear
that the prohibition against a trustee’s power to
assume an executory contract does not apply where it
is the debtor that is in possession and the
performance to be given or received under a personal
service contract will be the same as if no petition had
been filed because of the personal service nature of
the contract.
Subsection (c). This amendment makes it clear
that the time periods within which the trustee must
decide to assume or reject an unexpired lease or
executory contract are those contained in this

B25
subsection and not those applicable to prepetition
matters.
Subsection (d). This amendment makes it clear
that the prohibition against a trustee’s power to
assume an executory contract does not apply where it
is the debtor that is in possession and the
performance to be given or received under a personal
service contract will be the same as if no petition had
been filed because of the personal service nature of
the contract.
Subsection (e). This amendment corrects an error
in punctuation.
Subsection (f). This amendment makes a stylistic
change.
Subsection (g). This amendment makes it clear
that the damages which a lessee of the debtor may
offset against rent owing to the estate are only those
which arise out of the debtor’s default on obligations
under the lease.
Subsection (h). This amendment corrects an error
in punctuation; and makes it clear that the damages
which a purchaser of property from the debtor may
offset against the price owing to the estate are only
those which arise out of the debtor’s default on
obligations under the contract.
Subsection (i). This amendment makes it clear
that the lien to which the purchaser of property from
the debtor is entitled under this subsection arises
whether the purchaser’s down-payment has been paid
to the debtor or to another for the benefit of the
debtor.
Section 28. This amendment makes it clear that
the anti-discrimination provision directed against a
utility is triggered, inter alia, by the filing of a petition
under title 11.

B26
Section 29. This amendment adds to the crossreferences of the types of postpetition claims which
may be treated as prepetition claims.
Section 30(a). This amendment makes it clear
that in a partnership bankruptcy only general
partners may object to the allowance of a filed proof
of claim.
Page 13
Subsection (b). This amendment adds to the crossreferences of claims arising after the filing of a
petition to make it clear that even though such claims
do arise after the filing of the petition they are treated
as arising before the petition is filed; establishes the
currency basis upon which claims will be paid;
eliminates a redundancy; excepts from the
disallowance of unmatured interest original discount;
deletes from treatment by disallowance claims offset
since such treatment is more appropriate under the
section dealing with setoffs; redesignates the
paragraphs to conform to the deletion; inserts an
erroneously eliminated word; inserts an erroneously
eliminated word, corrects an error in punctuation,
and conforms the cross-references; makes a stylistic
change in the language dealing with landlords’
claims; and makes it clear that employment contract
claims are those of the employee whose contract is
terminated, clarifies that time period alternatives are
in a correlative not conjunctive relationship with each
other, substitutes the proper pronoun, and corrects a
punctuation error.
Subsection (c). This amendment makes several
stylistic changes.

B27
Subsection (d). This amendment deletes the
section cross-references as redundant since the
operative language of recoverability, avoidability, and
liability is adequately descriptive.
Subsection (e). This amendment adds to the crossreferences those to which this subsection otherwise
would be subject in the treatment of allowed claims;
corrects several punctuation errors; and makes a
stylistic change in the description of the right of
subrogation.
Subsection (f). This amendment makes it clear
that claims which arise from the recovery of property
in connection with the debtor’s claim a exemptions
can arise under more than one subsection of
subsection 522.
Subsection (g). This amendment makes a stylistic
change.
Subsection (h). This amendment makes it clear
that both allowed and disallowed claims may be
reconsidered and where such occurs any allowance
and distribution with respect thereto does not require
that creditors of the same class as the newly allowed
creditor need disgorge their dividends but that the
newly allowed creditor will receive a distribution, to
the extent there is property in the estate, to bring
such creditor into parity with the others of the same
class before any further distribution to the class as a
whole can occur.
Section 31. This amendment corrects several
errors in punctuation; makes it clear that certain tax
related claims to be given administrative expense
treatment are those incurred by the estate; makes
several punctuation changes to accommodate the
addition of a new paragraph; and adds a new
paragraph providing for administrative expense

B28
treatment of expenses incurred by individuals in
connection with their official responsibilities as
members of a creditors’ committee.
Section 32. This amendment makes it clear that
all questions regarding the estate’s and the debetor’s
personal liability for taxes are determinable by the
bankruptcy court and that the governmental unit
levying such tax(es), may not claim sovereign
immunity and is bound by such a determination;
eliminates a redundancy in paragraph (1) which
subject is dealt with in paragraph (2); makes it clear
that the bankruptcy court’s jurisdiction to determine
tax liability is not un-

B29
Page 51
§ 349. Effect of dismissal
(a) Unless the court, for cause, orders otherwise,
the dismissal of a case under this title does not bar
the discharge, in a later case under this title, of debts
that were dischargeable in the case dismissed.
(b) Unless the court, for cause, orders otherwise,
a dismissal of a case other than under section 742 of
this title—
(1) reinstates—
(A) any proceeding or custodianship
superseded under section 543 of this title;
(B) any transfer avoided under section 522,
544, 545, 547, 548, 549, or 724 ( a) of this title,
or preserved under section 510(c) (2),
522[(i)](h) (2), or 551 of this title; and
(C) any lien voided under section 506(d) of
this title;
(2) vacates any order, judgment, or transfer
ordered, under section 522[(i) (1)](h) (2) 542, 550,
or 553 of this title; and
(3) revests the property Of the estate in the
entity in which such property was vested
immediately before the commencement of the case
under this title.
§ 350. Closing and reopening cases
(a) After an estate is fully administered and the
court has discharged the trustee, the court shall close
the case.
(b) [a] A case may be reopened in the court in
which such case was closed to administer assets, to
accord relief to the debtor, or for other cause.

B30
SUBCHAPTER IV ADMINISTRATIVE POWERS
§ 361. Adequate protection
When adequate protection is required under
section 362, 363, or 364 of this title of an interest of
an entity in property, such adequate protection may
be provided by—
(1) requiring the trustee to make a cash
payment or periodic cash payments to such entity,
to the extent that the stay under section 362 of this
title, use, sale, or lease under section 363 of this
title, or any grant of a lien under section 364 of this
title results in a decrease in the value of such
entity’s interest in such property;
(2) providing to such entity an additional or
replacement lien to the extent that such stay, use,
sale, lease, or grant results in a decrease in the
value of such entity’s interest, in such property; or
(3) granting such other relief, other than
entitling such entity to compensation allowable
under section 503 (b) (1) of this title as an
administrative expense, as will result in the
realization by such entity of the indubitable
equivalent of such entity’s interest in such
property.
362. Automatic stay
(a) Except as provided in subsection (b) of this
section and section 365 of this title, a petition filed
under section 301, 302, or 303 of this title operates as
a stay, applicable to all entities, of—
(1) the commencement or continuation,
including the issuance or employment of process,
of a judicial, administrative, or other action or
proceeding against the debtor that was or could
have been

B31
Page 52
conmenced before the commencement of the case
under this title, or to recover a claim against the
debtor that arose before the commencement of the
case under this title;
(2) the enforcement, against the debtor or
against property of the estate, of a judgment
obtained before the commencement of the case
under this title;
(3) any act to obtain possession of property of
the estate or of property from the estate or to
exercise control over property of the estate;
(4) any act to create, perfect, or enforce any
lien against property of the estate;
(5) any act to create, perfect, or enforce against
property of the debtor any lien to the extent that
such lien secures a claim that arose before the
commencement of the case under this title;
(6) any act to collect, assess, or recover a claim
against the debtor that arose before the
commencement of the case under this title
(7) the setoff of any debt owing to the debtor
that arose before the commencement of the case
under this title against any claim against the
debtor; and
(8) the commencement or continuation of a
proceeding before the United States Tax Court
concerning the debtor.
(b) The filing of a petition under section 301, 302,
or 303 of this title does not operate as a stay—
(1) under subsection (a) of this section, of the
commencement or continuation of a criminal
action or proceeding against the debtor;

B32
(2) under subsection (a) of this section, of the
collection of alimony, maintenance, or support
from property that is not property of the estate;
(3) under subsection (a) of this section, of any
act to perfect an interest in property to the extent
that the trustee’s rights and powers are subject to
such perfection under section 546(b) of this title or
to the extent that such act is accomplished within
the period provided under section 547(e) (2) of this
title;
(4) under subsection (a) (1) of this section, of
the commencement or continuation of an action or
proceeding by a governmental unit to enforce such
governmental unit’s police or regulatory power;
(5) under subsection (a) (2) of this section, of
the enforcement of a judgment, other than a
money judgment, obtained in air action or
proceeding by a governmental unit to enforce such
governmental unit’s police or regulatory power;
(6) under subsection (a) (7) of this section, of
the setoff of any mutual debt and claim [that are]
regarding commodity futures contracts, forward
[commodity] contracts, leverage transactions,
options, warrants, rights to purchase or sell
commodity futures contracts or securities, or
options to purchase or sell commodities or
securities, or, under subsection (a) of this section,
of the setoff of any mutual debt and claim of a
commodity broker, forward contract merchant,
stockbroker, or securities clearing agency against
the debtor for a margin payment, as defined in
section 741 or 761

B33
Page 53
of this title, or settlement payment arising out of a
commodity contract, as defined in section 761 of
this title, forward contract, or securities contract,
as defined in section 741 of this title, against cash,
a security, or other property held by such
commodity broker, forward contract merchant,
stockbroker, or securities clearing agency to
margin, guarantee, or secure such commodity
contract, forward contracts or securities contract;
(7) under subsection (a) of this section, of the
commencement of any action by the Secretary of
Housing and Urban Development to foreclose a
mortgage or deed of trust in any case in which the
mortgage or deed of trust held by [said] the
Secretary is insured or was formerly insured
under the National Housing Act and covers
property, or combinations of property, consisting
of five or more living units; [or]
(8) under subsection (a) of this section, of the
issuance to the debtor by a governmental unit of a
notice of tax deficiency[.];
(9) under subsection (a) of this section, of the
filing of any continuation statement or the refiling
of any notice of a Federal tar lien required by
nonbankruptcy law to maintain perfection of a
security interest or the filing of such tow lien
properly filed under such, law before the date of the
filing of the petition; or
(10) under subsection (a) of this section, of the
presentment of a negotiable instrument and the
giving of notice of and protesting dishonor of such
an instrument.

B34
(c) Except as provided in subsections (d), (e), and
(f) of this section—
(1) the stay of an act against property of the
estate under subsection (a) of this section
continues until such property is no longer property
of the estate; and
(2) the stay of any other act under subsection
(a) of this section continues until the earliest of—
(A) the time the case is closed;
(B) the time the case is dismissed; [and] or
(C) if the case is a case under chapter 7 of
this title concerning an individual or a case
under chapter 9, 11, or 13 of this title, the time
a discharge is granted or denied.
(d) On request of a party in interest and after
notice and a hearing, the court shall grant relief from
the stay provided under subsection (a) of this section,
such as by terminating, annulling, modifying, or
conditioning such stay—
(1) for cause, including the lack of adequate
protection of an interest in property of such party
in interest; or
(2) with respect to a stay of an act against
property under subsection (a) of this section, if—
(A) the debtor does not have an equity in
such property; and
(B) such property is not necessary to an
effective reorganization in a case under chapter
11 of this title or is not necessary to an effective
plan in a case under chapter 13 of this title, as
the case may be.
(e) Thirty days after a request under subsection
(d) of this section for relief from the stay of any act
against property of the estate under

B35
Page 85
§ 546. Limitations on avoiding powers
(a) An action or proceeding under section 544,
545, 547, 548, or 553 of this title may not be
commenced after the earlier of—
(1) two years after the appointment of a
trustee under section 702, 1104, 1163, or 1302 of
this title; [and] or
(2) the time the case is closed or dismissed.
(b) The rights and powers of [the trustee under
section 544, 545, or] a trustee under sections 544, 545,
and 549 of this title are subject to any generally
applicable law that permits perfection of an interest
in property to be effective against an entity that
acquires rights in such property before the date of
such perfection. If such law requires seizure of such
property or commencement of an action to accomplish
such perfection, and such property has not been
seized or such action has not been commenced before
the date of the filing of the petition, such interest in
such property shall be perfected by notice within the
time fixed by such law for such seizure or
commencement.
(c) The rights and powers of [the] a trustee under
sections 544(a), 545, 547, and 549 of this title are
subject to any statutory [right] or common-law right
of a seller of goods, in the ordinary course of such
seller’s business, [of] that has sold goods to the debtor
to reclaim such goods if the debtor has received such
goods while insolvent, but—
(1) such a seller may not reclaim any such
goods unless such seller demands in writing
reclamation of such goods before ten days after
receipt of such goods by the debtor; and

B36
(2) the court may deny reclamation to a seller
with such a right of reclamation that has made
such a demand only if the court—
(A) grants the claim of such a seller priority
as [an administrative expense] a claim of a
kind specified in section 503(b) of this title; or
(B) secures such claim by a lien.
(d) Notwithstanding sections 544, 545, 547,
54B(a) (2), and 548 (b) of this title, the trustee may not
avoid a transfer that is a margin payment, as defined
in section 741 or 761 of this title, deposit, or settlement
payment, made by or to a commodity broker, forward
contract merchant, stockbroker, or securities clearing
agency, and that occurs before the commencement of
the case, except under section 548 (a) (1) of this title.
§547. Preferences
(a) In this section—
(1) “inventory” means personal property
leased or furnished, held for sale or lease, or to be
furnished under a contract for service, raw
materials, work in process, or materials used or
consumed in a business, including farm products
such as crops or livestock, held for sale or lease;
(2) “new value” means money or money’s worth
in goods, services, or new credit, or release by a
transferee of property previously transferred to
such transferee in a transaction that is neither
void nor voidable by the debtor or the trustee
under any applicable law, including proceeds of
such property, but does not include an obligation
substituted for an existing obligation;
(3) “receivable” means right to payment,
whether or not such right has been earned by
performance; and

